TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                      A Corporate Approach Is Needed to
                    Provide for a More Effective Tax-Exempt
                                 Fraud Program



                                            July 6, 2009

                              Reference Number: 2009-10-096




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review process
  and information determined to be restricted from public release has been redacted from this document.

 Redaction Legend:
 1 = Tax Return/Return Information




 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                              DEPARTMENT OF THE TREASURY
                                                   WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                               July 6, 2009


 MEMORANDUM FOR COMMISSIONER, TAX EXEMPT AND GOVERNMENT ENTITIES
                DIVISION

 FROM:                       Michael R. Phillips
                             Deputy Inspector General for Audit

 SUBJECT:                    Final Audit Report – A Corporate Approach Is Needed to Provide for a
                             More Effective Tax-Exempt Fraud Program (Audit # 200810024)

 This report presents the results of our review of the Tax Exempt and Government Entities
 (TE/GE) Division’s Fraud Program. The overall objectives of this review were to determine
 whether emphasis placed on detecting fraud by TE/GE Division management resulted in a more
 effective program to identify criminal and civil fraud issues in the tax-exempt sector and to
 follow up on recommendations from prior Treasury Inspector General for Tax Administration
 audits 1 of the TE/GE Division’s fraud program. In addition, we determined the number of civil
 fraud assessments and criminal fraud referrals made by the TE/GE Division. This review was
 conducted as part of the Treasury Inspector General for Tax Administration Office of Audit
 Fiscal Year 2008 Annual Audit Plan related to the major management challenge of Tax
 Compliance Initiatives.

 Impact on the Taxpayer
 In response to our prior reports, each of the TE/GE Division offices implemented changes to
 their fraud programs, and we found that identifying potential fraudulent activity is included in
 the work routine of some offices. This approach has resulted in significantly more fraud
 development cases, 2 of which most were from one office. However, a more corporate approach

 1
   The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
 Fraudulent Activities (Reference Number 2003-10-217, dated September 29, 2003) and The Tax Exempt and
 Government Entities Division Is Making Progress to Detect and Deter Fraud Within Its Customer Base, but the
 Impact Cannot Be Determined at This Time (Reference Number 2005-10-161, dated September 30, 2005).
 2
   Cases become known as fraud development cases when the examiner, TE/GE Division management, and the Small
 Business/Self-Employed Division Fraud Office agree that potential fraud exists.
·---------..          --.·.-·---.···.---·~·-l

                             A Corporate Approach Is Needed to Provide 'or a More
                                    Effective Tax-Exempt Fraud Program




   with centralized oversight is needed to provide for a more effective TE/GE Division fraud
   program. We believe an effective fraud program will provide greater assurance that the trust
   placed in the tax-exempt sector by taxpayers and the good work done by most tax-exempt
   organizations are not tarnished.

   Synopsis

   In response to our prior reports, each of the five TE/GE Division offices implemented changes to
   their fraud programs. This approach has resulted in more fraud development cases, application
   of potential penalties, and further development of cases for criminal prosecution. When we first
   reviewed the TE/GE Division fraud program, we determined that 11 cases had been referred for
   possible criminal prosecution during Fiscal Years 2000 through 2002. For Fiscal Years 2006
   through 2008, the Small Business/Self-Employed Division Fraud Office approved
   48 TE/GE Division cases for fraud development. Of the 48 cases, 32 potentially represent
   approximately $37 million of additional revenue which may be forthcoming. The
   TE/GE Division also assessed $10 million3 in civil penalties and other related assessments on
   4 cases. 4 In addition, all offices have taken actions to emphasize fraud by providing fraud
   awareness training to employees, providing resources to assist in detecting fraudulent activity,
   and obtaining feedback on fraud referrals.
   However, we believe that a corporate approach with centralized oversight is needed. The
   five TE/GE Division offices are at different maturity points in their capabilities to evaluate,
   address, and monitor the risk of fraud occurring within their respective customer base. We
   identified the following control gaps in the fraud program.
       •   Throughout the TE/GE Division, key fraud controls, such as tracking/monitoring fraud
           development cases and fraud referrals, emphasizing fraud in strategic planning
           documents, and coordinating with the Criminal Investigation Division to prioritize and
           improve fraud detection and referral, were implemented in some offices but not
           implemented in others. This resulted in gaps in controls intended to ensure that fraud is
           detected and deterred.
       •   One TE/GE Division office refers information items S to other Internal Revenue Service
           (IRS) divisions without further development of potential fraud issues, as required by IRS
           guidelines. This office has encountered potential fraud perpetrated by customers of other
           IRS divisions (third parties who are outside the jurisdiction of this particular TE/GE



 [                                                 1
  4 See Appendix IV for additional details.
  s Infol1Tlation items are referrals of information from one office to another office within the Internal Revenue
  Service or ITom outside sources.

                                                                                                                     2
                      A Corporate Approach Is Needed to Provide for a More
                              Effective Tax-Exempt Fraud Program



       Division office). In Fiscal Year 2005, the Director of this TE/GE Division office issued
       instructions that examiners should consult their manager to determine if the fraud
       coordinator and the Small Business/Self-Employed Division fraud technical advisors
       should be contacted to determine whether to continue development of the fraud issues.
       When the Small Business/Self-Employed Division Fraud Office agrees that fraud should
       be developed, it assists in obtaining cooperation with the IRS division that has
       jurisdiction over the IRS customer committing the fraud. Both offices should then work
       together to develop their part of the fraud case. However, these guidelines were not
       being followed.
       In addition, this office does not know what happens to the potential fraud issues referred
       in information items because there is no system in place to track the issues or ensure that
       any followup occurred. However, if resources are not available in other IRS divisions
       because of workload priorities, the potential fraud may never be addressed and
       TE/GE Division management in this office may never know whether customers of other
       IRS divisions perpetrate fraud on TE/GE Division entities.
The former Commissioner, TE/GE Division, issued a memorandum during our audit (July 2008)
that emphasized the importance of identifying and developing fraud cases and also appointed a
Division fraud specialist and directed all employees to contact the specialist for assistance in
fraud investigations. This is a step in bringing additional consistency to the TE/GE Division
fraud program and creating a culture from the top of the Division down that fraud will be
identified and pursued in the tax-exempt sector. However, a more corporate approach with
centralized oversight is needed to provide for a more effective TE/GE Division fraud program.
Unless centralized executive direction and oversight is applied, the fraud program may continue
to have critical issues that, if not sufficiently addressed, will prevent the Division from
successfully managing fraud risk. This approach will also help ensure that the trust placed in the
tax-exempt sector and the good work done by most tax-exempt organizations are not tarnished.

Recommendations
To provide for a more effective TE/GE Division fraud program, we recommended the
Commissioner, TE/GE Division, 1) develop and implement a corporate fraud approach for the
TE/GE Division, and 2) ensure that all TE/GE Division offices follow IRS procedures and
contact the Small Business/Self-Employed Division Fraud Office to determine whether cases
with affirmative indications of fraud should be pursued as fraud development cases.

Response
IRS management agreed with our recommendations and provided planned actions to address
them. These actions include developing and implementing a corporate fraud approach for the

                                                                                                     3
                     A Corporate Approach Is Needed to Provide for a More
                             Effective Tax-Exempt Fraud Program



TE/GE Division and ensuring that all TE/GE Division offices follow IRS procedures and contact
the Small Business/Self-Employed Division Fraud Office when appropriate. Management’s
complete response to the draft report is included as Appendix VI.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or Nancy A.
Nakamura, Assistant Inspector General for Audit (Headquarters Operations and Exempt
Organizations Programs), at (202) 622-8500.




                                                                                            4
                              A Corporate Approach Is Needed to Provide for a More
                                      Effective Tax-Exempt Fraud Program




                                            Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 5
          Fraud Development Cases Have Increased, but the Tax-Exempt Fraud
          Program Could Be More Effective if Fully Implemented in All Offices .....Page 5
                    Recommendations 1 and 2: ..............................................Page 15


Appendices
          Appendix I – Detailed Objectives, Scope, and Methodology.......................Page 16
          Appendix II – Major Contributors to This Report ........................................Page 18
          Appendix III – Report Distribution List .......................................................Page 19
          Appendix IV – Outcome Measures...............................................................Page 20
          Appendix V – Tax Exempt and Government Entities Division
          Fraud Program Details ..................................................................................Page 22
          Appendix VI – Management’s Response to the Draft Report ......................Page 29
        A Corporate Approach Is Needed to Provide for a More
                Effective Tax-Exempt Fraud Program




                   Abbreviations

CI           Criminal Investigation
IRS          Internal Revenue Service
SB/SE        Small Business/Self-Employed
TE/GE        Tax Exempt and Government Entities
TIGTA        Treasury Inspector General for Tax Administration
                         A Corporate Approach Is Needed to Provide for a More
                                 Effective Tax-Exempt Fraud Program




                                          Background

The Internal Revenue Service (IRS) Tax Exempt and
Government Entities (TE/GE) Division has five offices 1                  Approximately 3 million
                                                                    tax-exempt entities control more
that serve five different types of tax-exempt customers.              than $13 trillion in assets and
Approximately 3 million entities make up this sector,                   pay more than $270 billion
and these entities control more than $13 trillion in assets.        annually in employment tax and
Although generally not subject to Federal income tax,                    income tax withholding.
the tax-exempt sector pays more than $270 billion
annually in employment tax and employee income tax
withholding.
Tax fraud is a deliberate, willful violation of Internal Revenue laws and involves obtaining
something of value through deceit. In June 2007, the former acting IRS Commissioner stated
that while tax-exempt entities provide important services to American citizens, a number of
factors in the sector have contributed to a culture that has become more casual about compliance
and less resistant to noncompliance. However, TE/GE Division management has been aware
that potential fraud occurred in the tax-exempt sector since at least Fiscal Year 2000 and has
identified some tax-exempt organizations that were involved with potential fraudulent activities
such as hiding and moving funds to other groups and individuals.
Several factors have made it easier for tax-exempt entities to be involved in abusive or fraudulent
activities and have made it more difficult for TE/GE Division management to identify and
quantify the amount of fraud that exists.
    •   Some tax-exempt entities have not established independent, empowered, and active
        boards of directors to ensure that tax-exempt organizations serve public purposes and do
        not misuse or squander the resources and their trust.
    •   Tax-exempt entities are not required to file income tax returns (they generally file
        information returns on their tax-exempt activities).
    •   Tax-exempt entities can be used by individuals, who are customers of other IRS divisions
        (third parties), to perpetrate fraud. The organizational structure of the IRS often prevents
        TE/GE Division employees from performing examinations of customers of other
        IRS divisions.



1
 These include the Exempt Organizations and Employee Plans functions; and the Federal, State, and Local
Governments, Indian Tribal Governments, and Tax Exempt Bonds offices within the Government Entities function.
                                                                                                      Page 1
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program



In October 2000, the IRS reorganized into four divisions 2 and delegated each division
responsibility for developing procedures and establishing priorities for serving its customers.
While this new organizational structure enabled each division to establish end-to-end
accountability for its respective customer base, it resulted in a fragmented approach to the
accomplishment of IRS-wide programs, such as the National Fraud Program. This weakness
created an opportunity for fraud and, at the same time, made it more difficult for the IRS to
identify and address fraud issues.
In June 2007, the former acting Commissioner also stated weak governance 3 practices in the
tax-exempt sector and the need for an even stronger enforcement presence by the
TE/GE Division continued to provide opportunities for tax-exempt customers to remain involved
with abusive or questionable transactions and for tax-exempt entities to be used by third parties
to accommodate abuse. Allowing fraud and abusive activities to exist in the tax-exempt sector
violates not only the law and tax regulations, it also violates the trust that citizens have in the
large majority of charities, foundations, and other groups that do good work in the United States.
Accordingly, since Fiscal Year 2005, TE/GE Division management has increased their
enforcement efforts.
The IRS National Fraud Program is established within the Small Business/Self-Employed
(SB/SE) Division and is responsible for coordinating the establishment of IRS-wide fraud
strategies, policies, and procedures to enhance enforcement of the tax law. It also provides Fraud
Referral Program coordination for all IRS divisions to identify and develop fraud cases and to
reduce the amount of time spent on the cases. The IRS has documented that identifying and
developing potential fraud is a priority that should be considered in all examinations.
TE/GE Division management’s fraud efforts are conducted as part of the National Fraud
Program. If indications of fraud are identified by TE/GE Division employees, the
SB/SE Division Fraud Office provides guidance during development of the fraud case. When
the SB/SE Division Fraud Office is satisfied that TE/GE Division employees have gathered
enough evidence, the case is referred to the Criminal Investigation (CI) Division for
consideration for criminal prosecution.
The Treasury Inspector General for Tax Administration (TIGTA) has conducted one audit of the
IRS-wide National Fraud Program. 4 We recently reported that the SB/SE Division emphasized

2
  The structure of the IRS was modified to eliminate geographical organizations and reorganized into divisions
serving groups of taxpayers. The IRS’ four divisions include the TE/GE, the Large and Mid-Size Business, the
Wage and Investment, and the Small Business/Self-Employed Divisions.
3
  Governance is defined as the establishment of policies, and continuous monitoring of their proper implementation,
by members of the governing body of an organization. It includes mechanisms required to balance the powers of the
members (with the associated accountability) and their primary duty of enhancing the prosperity and viability of the
organization.
4
  Management Has Emphasized the Fraud Program, but Opportunities Exist to Further Improve It (Reference
Number 2007-30-179, dated September 18, 2007).
                                                                                                           Page 2
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program



the National Fraud Program, but a review of examination cases showed that examiners did not
always adequately identify fraud indicators, fully develop fraud issues, contact a fraud technical
advisor 5 when appropriate, or timely discuss substantial understatement of income with the
group manager. As a result of not properly identifying or fully developing potential fraud issues,
the IRS may not deter noncompliance and could fail to collect revenue in the form of income tax
and could fail to assess civil and criminal penalties. In addition, if the IRS does not address tax
fraud among those who generally do not comply, voluntary tax compliance may decrease among
those taxpayers who generally do comply.
The TIGTA also conducted two prior audits of the TE/GE Division fraud program. In
Fiscal Year 2003, 6 we reported that the TE/GE Division started taking steps to improve its fraud
program and generally implemented the guidelines for the National Fraud Program with the
exception of one function which coordinated the development of fraud issues directly with the
CI Division. The TIGTA also identified that the TE/GE Division was not giving information
items 7 with the potential of fraud priority treatment and that abusive schemes were not being
considered for criminal fraud potential. In Fiscal Year 2005, 8 the TIGTA reported that each
TE/GE Division office had individually taken steps to improve its respective fraud program, but
we could not determine the impact of those improvements because they were recent or still in the
process of being implemented.
The current audit of the TE/GE Division fraud program was conducted while the Division was
developing and implementing its Fiscal Year 2009 work plans. As a result, this report might not
reflect the most current status of the IRS’ efforts to identify and address fraud within the
tax-exempt sector.
This review was performed at the TE/GE Division Headquarters and the SB/SE Division Fraud
Office in Washington, D.C.; the Exempt Organizations field office in Chicago, Illinois; the
Employee Plans field office in Atlanta, Georgia; the Indian Tribal Governments field office in
Buffalo, New York; the Federal, State, and Local Governments Compliance and Program
Management Office in Austin, Texas; and the Tax Exempt Bonds field office in
Denver, Colorado, during the period February 2008 through April 2009. We conducted this
performance audit in accordance with generally accepted government auditing standards. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate evidence to


5
  Fraud technical advisors are employed in the SB/SE Division and are available to assist in fraud investigations and
offer advice on matters concerning tax fraud to all IRS employees.
6
  The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
Fraudulent Activities (Reference Number 2003-10-217, dated September 29, 2003).
7
  Information items are referrals of information from one office to another office within the IRS or from outside
sources.
8
  The Tax Exempt and Government Entities Division Is Making Progress to Detect and Deter Fraud Within Its
Customer Base, but the Impact Cannot Be Determined at This Time (Reference Number 2005-10-161, dated
September 30, 2005).
                                                                                                             Page 3
                      A Corporate Approach Is Needed to Provide for a More
                              Effective Tax-Exempt Fraud Program



provide a reasonable basis for our findings and conclusions based on our audit objectives. We
believe that the evidence obtained provides a reasonable basis for our findings and conclusions
based on our audit objectives. Detailed information on our audit objectives, scope, and
methodology is presented in Appendix I. Major contributors to the report are listed in
Appendix II.




                                                                                          Page 4
                              A Corporate Approach Is Needed to Provide for a More
                                     Effective Tax-Exempt Fraud Program




                                          Results of Review

 Fraud Development Cases Have Increased, but the Tax-Exempt Fraud
 Program Could Be More Effective if Fully Implemented in All Offices
In response to our prior reports, each of the five TE/OE Division offices implemented changes to
their fraud programs. This approach has resulted in more fraud development cases, application
of potential penalties, and further development of cases for criminal prosecution. When we first
reviewed the TEIOE Division fraud program, we determined that 11 cases had been referred to
the cr Division, and 4 were accepted for possible criminal prosecution during Fiscal Years 2000
through 2002. For Fiscal Years 2006 through 2008, the SB/SE Division Fraud Office approved
48 TE/OE Division cases for fraud development. 9 Of the 48 cases, 32 potentially represent
approximately $37 million of additional revenue which may be forthcoming. The TE/OE
Division also assessed $10 million III in civil penalties and other related assessments on 4 cases. 11
In addition, all offices have taken action to emphasize fraud by providing fraud awareness
training to employees, providing resources to assist in detecting fraudulent activity, and
obtaining feedback on fraud referrals.
 However, a more corporate approach with centralized oversight is needed to provide for a more
 effective TEIOE Division fraud program. The five TE/OE Division offices are at different
 maturity points in their capability to evaluate, address, and monitor the risk of fraud occurring
 within their respective customer base. In addition, unless centralized executive direction and
 oversight is applied, the Division's fraud program may continue to have critical issues that, ifnot
 sufficiently addressed, will prevent the Division from successfully managing fraud risk. The
 Commissioner, TE/OE Division, and the executive team need to take action to determine the
 emphasis that should be placed on fraud throughout all offices within the TE/GE Division to
 foster voluntary compliance and ensure tax-exempt sector fraud cases are adequately considered
 for potential penal6es or criminal prosecution. This will help ensure that the trust placed in the
 tax-exempt sector and the good work done by most tax-exempt organizations are not tarnished.
Although the number of fraud development cases and fraud referrals have significantly increased
since we first reviewed the TE/OE Division fraud program, the increase is due to one office
placing substantial emphasis on fraud and implementing most of our prior recommendations.


9     Cases become known as fraud development cases when the examiner, TE/GE Division management, and the
11SBfSE Division Fraud Office agree that DotentiaJ fraud exists


 II   See Appendix IV for additional details.

                                                                                                       Page 5
                      A Corporate Approach Is Needed to Provide for a More
                              Effective Tax-Exempt Fraud Program



We based our conclusion on the need for a more corporate approach with centralized oversight in
the TE/GE Division fraud program on the following:
   •   Throughout the TE/GE Division, key fraud controls, such as tracking/monitoring fraud
       development cases and fraud referrals, emphasizing fraud detection and referral in
       strategic planning documents, and coordinating with the CI Division to prioritize and
       improve fraud detection and referral, were implemented in some offices but not
       implemented in others. This resulted in gaps in controls intended to ensure that fraud is
       detected and deterred in all offices.
   •   In one of five offices, information items with fraud potential are not discussed with its
       fraud coordinator or with the SB/SE Division fraud technical advisor, are not tracked, and
       no assurance is provided that they are addressed by other IRS divisions. Information
       items are prepared when employees identify suspicious and possibly inappropriate
       activity by taxpayers who are customers of other IRS divisions. This represents a gap in
       controls because TE/GE Division employees do not have jurisdiction over customers of
       other IRS divisions and cannot continue the fraud research or fully develop the potential
       fraud issue. However, if resources in the other divisions are not available because of
       workload priorities, the potential fraud may never be addressed and TE/GE Division
       management in this office may never know whether customers of other IRS divisions
       perpetrate fraud using TE/GE Division entities.
During the audit, we discussed our overall observations about the TE/GE Division fraud program
with the former Commissioner, TE/GE Division. He stated that the decision to allow the
five offices to design and implement their own fraud programs was due to the fact that he
believed management of the five offices better understood their respective technical issues and
would have the best ideas for implementing the fraud program for their specific customers.
Taking this approach has merit because of the complexities in the five TE/GE Division offices
with their distinct and unique customer bases (e.g., small volunteer community organizations,
hospitals, churches, sovereign Indian tribes with large casinos, large pension funds, and Federal,
State, and Local Government entities).
The former Commissioner also stated that he preferred letting each office implement its own
fraud programs and determine what works and does not work before trying to standardize
processes across the TE/GE Division. However, during our audit, the former Commissioner,
TE/GE Division, issued a memorandum (July 2008) to all Division employees that emphasized
the importance of identifying and developing fraud cases to foster confidence in the tax system
and compliance with the law. The former Commissioner also appointed a Division fraud
specialist and directed all employees to contact the specialist for assistance in fraud
investigations. Although no other responsibilities were noted in the memorandum, this is a step
in bringing additional consistency to the TE/GE Division fraud program and in creating a culture
from the top of the Division down that fraud will be identified and pursued in the tax-exempt
sector.

                                                                                           Page 6
                                   A Corporate Approach Is Needed to Provide for a More
                                          ERective Tax·Exempt Fraud Program




The following provides additional details and observations on the growth of the TE/GE Division
fraud program since our first audit.

The number of fraud development cases and fraud referrals has increased
The number of TE/GE Division cases approved for fraud development by the SB/SE Division
Fraud Office and referred to the CI Division for potential prosecution has increased since
Fiscal Year 2000. Figure 1 shows the total number ofTE/GE Division cases accepted for fraud
development under the IRS' National Fraud Program and referred to and accepted by the
CI Division for further development and potential criminal prosecution.
 Figure 1: Total Number of Fraud Development Cases, Referrals to the Criminal
Investigation Division, and Referrals Accepted for Potential Criminal Prosecution
                         (Fiscal Years 2000 through 2008)
1 - _.. _------_..·_ _·_-
i        30


I        25

I~
    i
         20



I        15
         10

I .'"
    .~


    ~     5   +-...,.:..;"--~



          o
                   2000           2001          2002        2003         2004         2005          2006      2007   2008
                                                                      Fiscal Year
                                         r"   Iilll Fraud Dc~lo ment-case~---------'J
                                            • Referrals to the CI Division
 _ ...._ .          ...._   ... __.. _ . .\ 0 ~efer~~s Ac~~pted for Po~ential Crimi.nal Prose~ytion .._._..                 ._1
Source: The number o/fraud development cases was not availablefor Fiscal Years 2000 and 2001. Fraud
development cases for Fiscal Years 2002 through 2008 were compiledfrom analysis ofthe SBISE Division's
National Fraud Database. fraud referrals and referrals accepted by the C/ Divisionfor Fiscal Years 2000
thruugh 2008 were provided by CI Division management. There was no independent source ofdala to validate
referralsfor Fiscal Years 2000 through 2005. Referralsfrom Fiscal Years 2006lhrough 2008 were reconciled
with information provided by TEIGE Division management to validate their accuracy.

For Fiscal Years 2006 through 2008, the SB/SE Division Fraud Office approved 48 TE/GE
Division cases for fraud development. Of the 48 cases, 32 (71 taxpayer accounts) potentially



                                                                                                                       Page 7
                             A Corporate Approach Is Needed to Provide for a More
                                    Effective. Tax-Exempt Fraud Program




represent approximately $37 million'2 of additional revenue which may be forthcoming. The
status 13 of the 48 cases as of September 30, 2008, is as follows:
       •   17 of 48 cases were referred to the CI Division for further development and potential
           criminal prosecution.
                ~   10 14 of 17 cases were accepted by the CI Division for potential criminal
                    prosecution and assessment of $11 million.
                ~   6 of 17 cases were declined by the CI Division for further development.


       •   9 of 48 cases were closed prior to referral to the CI Division.
       •   22 of 48 cases include indications of potential fraud that are being developed by the
           TE/GE Division and SB/SE Division Fraud Office with potential assessments of
           $26 million.
In addition, the TE/GE Division assessed an additional $10 million'S in civil penalties and other
related assessments on 4 cases. 16
This represents a substantial increase from Fiscal Years 2000 through 2002 when we first
reviewed the TE/GE Division fraud program. For that time period, 11 referrals were forwarded
to the CI Division and 4 were accepted for development and potential prosecution.
We attributed the increase in the number of fraud development cases and fraud referrals to
improvements in the TE/GE Division fraud program. Specifically, we observed the one office
that placed a substantial amount of emphasis on its fraud program and implemented the majority
of our previous recommendations achieved the most success in tenns of fraud development cases
and fraud referrals. This is one of the largest offices in the TE/GE Division and is responsible
for most of the recommended revenue assessments. Two other offices had success in terms of
fraud development cases and fraud referrals but did not identify as many cases. Figure 2 shows


12 See Appendix IV for additional details.
IJ This status represents only the 48 cases identified from SB/SE Division Fraud Office data that were approved for
fraud development from Fiscal Years 2006 through 2008 and does not take into consideration cases that may have
already been in process from prior years. Therefore, the numbers discussed in this status will not always agree with




16   See Appendix TV for additional details.

                                                                                                             Page 8
                                A Corporate Approach Is Needed to Provide for a More
                                       Effective Tax-Exempt Fraud Program



the increase in the number of fraud development cases for Fiscal Years 2006 through 2008 from
one office compared to the five offices in the entire TE/GE Division.
             Figure 2: Comparison of Fraud Development Cases in One Office to
                     All Fraud Development Cases in the TE/GE Division
                                  (Fiscal Years 2006 through 2008)
                  ._-_....•.._ - - _ . _ - - -                  ._--_          __
                                                             _-_.•....._ - - - - - _..._-




                                2006                                        2007                                 2008



       _ _ _ _ _ _-=@i=,=.!':r.~.~ld
                                                                      Fiscal Year

                                       D~~ lopm~12~. Ca~cs .···One Off~c7   • Fraud D~~.~~pment Cases - AllF;;
     Source: Fraud development case information/or Fiscal Years 2006 through 2008 was compiled/rom ana(vsis
     the SBISE Division National Fraud Database. This in/ormation was compared to information provided by
                                                                                                                 O~        J
                                                                                                                           0/
     TE/GE Division management to validate its accuracy.

More importantly, the increase in fraud development cases and fraud referrals may be attributed
to TE/GE Division management learning more about where fraud vulnerabilities exist in the
tax-exempt sector. They focused on identifying how third parties perpetuate fraudulent acts by
using tax-exempt entities to conceal taxable income or steal cash or property for personal gain.

Enforcement actions were taken to ensure compliance
Employees in four of five TE/GE Division offices l1 know the appropriate steps to take when
indications of fraud are identified. Our review of documentation from 25 cases 18 identified that
examiners documented potential fraudulent activity including omission of income, claiming false
expenses andlor deductions, filing altered and/or false documents, evading payment, or misusing

17In one office. there were no examination cases containing fraud indicators for review.
18The 25 cases reviewed were either provided by TE/GE Division management or selected by TlGTA auditors ITom
case inventories to determine if appropriate actions were taken after identifying indications of fraud.

                                                                                                                        Page 9
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program



the tax-exempt organization status; and coordinated with SB/SE Division fraud technical
advisors, CI Division management, or their respective fraud coordinators.19
Several TE/GE Division fraud coordinators also informed us that they now receive more
questions regarding fraud issues and/or requests for assistance to develop fraud cases. For
example, one fraud coordinator received telephone calls from employees daily; whereas, fraud
coordinators in other offices received telephone calls much less frequently. This indicates that
identifying potential fraudulent activity is included in the work routine of some of the
TE/GE Division offices.
Enforcement activities outside the IRS National Fraud Program are also conducted in most
TE/GE Division offices and have the effect of reducing fraud that may occur in the tax-exempt
sector.
     •   One office works with other Federal Government agencies, such as the Federal Bureau of
         Investigation and the Financial Crimes Enforcement Network, to address criminal
         activity within the tax-exempt sector.
     •   Another office uses civil penalties to enforce the Internal Revenue Code and provide a
         deterrent against abusive and fraudulent transactions. From Fiscal Years 2006 through
         2008, 19 entities were assessed more than $50 million in civil penalties, of which more
         than $44 million has been collected. This approach is taken to encourage voluntary
         compliance while providing a deterrent against abusive and fraudulent transactions and
         because of the difficulty of prosecuting cases before juries that may not understand the
         complex legal issues.
     •   Several offices referred practitioners such as lawyers and accountants to the IRS Office
         of Professional Responsibility to prevent them from practicing before the IRS when
         evidence of significant inappropriate activity was identified. We could not determine the
         total number of practitioners referred to the Office of Professional Responsibility by the
         TE/GE Division.

The TE/GE Division fraud program could be more effective with consistent
implementation of key controls
The TE/GE fraud program is not as effective as it could be due to insufficient implementation of
key fraud controls. To reach this conclusion, we assessed actions that TE/GE Division
management has taken to 1) implement prior TIGTA recommendations, 2) emphasize the
importance of fraud detection and deterrence to employees and customers, and 3) coordinate
with other IRS divisions and fraud groups in developing and working fraud development cases

19
  Fraud coordinators are employed in all five TE/GE Division offices. Their responsibilities include assisting in the
development of fraud referrals and providing case coordination with the SB/SE Division Fraud Office and the
CI Division.
                                                                                                           Page 10
                        A Corporate Approach Is Needed to Provide for a More
                                Effective Tax-Exempt Fraud Program



and fraud referrals. Figure 3 defines the colors (red, yellow, and green) we used in Figure 4 in
our assessment of TE/GE Division fraud controls. See Appendix V for additional details on the
assessments we made for each key fraud program control.
                                  Figure 3: Definition of Colors




        Figure 4: TIGTA Assessment of Key Fraud Program Controls in the
                               TE/GE Division

                                                                                                   Status




                                                                                                     Yellow

                                                                                                              Green
                                                                                             Red

 Key Fraud Program Controls

 Implementing Prior TIGTA Recommendations

    Performing Assessments to Identify Areas Vulnerable to Fraud

    Providing Fraud Awareness Training to Employees

    Alerting Customers of Potential Fraud Scenarios

    Enhancing Inventory Systems to Track and Monitor Potential Fraud Development Cases and
    Referrals

    Providing In-Depth Training to TE/GE Division Fraud Coordinators




                                                                                                    Page 11
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program




                                                                                                         Status




                                                                                                           Yellow

                                                                                                                    Green
                                                                                                   Red
 Key Fraud Program Controls

     Establishing a Process to Evaluate Internal/External Allegations of Fraud

     Coordinating With the CI Division to Prioritize Fraud Issues

 Emphasizing the Importance of Fraud to Employees

     Emphasizing Fraud in Strategic Documents (e.g., Strategic Plans, Annual Examination
     Letters, or Annual Work Plans)

     Emphasizing Fraud Scenarios That Were Identified and the Tools and Techniques for
     Employees to Use to Identify Fraud

     Maintaining an Up-To-Date Fraud Handbook


     Providing Staffing to Assist in Detecting Fraudulent Activities


     Providing Fraud Coordinators to Assist and Help TE/GE Division Employees Develop
     Referrals

 Coordinating With Other IRS Divisions and Fraud Groups

     Communicating With the CI Division to Improve the Identification, Development, and Referral
     of Potential Fraud Issues

     Coordinating With the SB/SE Division Fraud Office


     Receiving Feedback on Fraud Referrals

Source: Discussions with TE/GE and SB/SE Divisions management and review of strategic documents.

The Commissioner, TE/GE Division, did not ensure that the above controls were implemented in
all TE/GE Division offices. As a result, the culture created by executive management in the
Division and within all of the five offices did not sufficiently reinforce the importance of
identifying fraud within the tax-exempt sector. For example, one office, for the most part, did
not implement several of our recommendations for an effective fraud program because of the
belief that its customers were victims, not perpetrators, of fraud. In addition, this office did not
continue development of fraud issues when they were identified because it had no jurisdiction
over the IRS customers that potentially committed criminal acts against TE/GE Division

                                                                                                          Page 12
                       A Corporate Approach Is Needed to Provide for a More
                               Effective Tax-Exempt Fraud Program



customers. Because of this belief, management had not emphasized fraud and had not taken
steps similar to those taken by other offices within the TE/GE Division to alert their customers of
outside attempts to commit fraud. As a result, fraud could be occurring undetected, and it may
be allowed to continue.

The TE/GE Division could more effectively manage referrals of third-party
information items
In addition to making improvements to its overall fraud program, the TE/GE Division can make
improvements to how it manages the referral of individuals who potentially misuse tax-exempt
entities to perpetuate fraud such as evading taxes, claiming false deductions, or omitting income.
These individuals generally have a relationship with the tax-exempt entity but are not customers
of the TE/GE Division. In these situations, fraud can occur and go undetected because
TE/GE Division examiners do not have jurisdiction over or access to third-party bank records
and other financial information.
When TE/GE Division management identifies customers of other IRS divisions involved in
potential criminal acts related to tax-exempt entities, one of two actions are generally taken to
resolve the issue:
   •   TE/GE Division management may refer information items to other IRS divisions;
       however, no further action may be taken to resolve the questioned issues. Other
       IRS divisions may assign the information items into their examination workload, but at
       other times may not have the resources to expend examining the information items
       because of workload priorities. Therefore, taking this course of action may not resolve
       the potential fraud issue.
   •   TE/GE Division management may contact an SB/SE Division fraud technical advisor and
       if together they determine that the information item should be further pursued as fraud,
       SB/SE Division assistance will be provided to obtain cooperation with the IRS division
       that has jurisdiction over the customer committing fraud. Both offices should then work
       together to develop their part of the fraud case. SB/SE Division Fraud Office
       management stated that this is the course of action that should be taken to ensure
       third-party issues are resolved.
One TE/GE Division office refers information items with potential fraudulent issues to other
IRS divisions and does not contact its own fraud coordinator or SB/SE Division fraud technical
advisors because of the belief that its customers were victims of fraud rather than perpetrators.
During the audit, we reviewed several cases where examiners identified indications of fraud
perpetrated by third-party customers of another IRS division that potentially affected a
tax-exempt entity. The information items were referred to the IRS division with jurisdiction for
the third-party accounts, but the TE/GE Division office did not know what happened to the cases
after the information items left their office because there was no system in place to track the

                                                                                            Page 13
                      A Corporate Approach Is Needed to Provide for a More
                              Effective Tax-Exempt Fraud Program



cases or ensure that any follow up occurred. After we brought the information items to their
attention, TE/GE Division management stated they should have taken additional actions, such as
contacting the SB/SE Division fraud technical advisor to ensure that the potential fraud issue was
properly addressed. In addition, in Fiscal Year 2005, the Director of this TE/GE Division office
issued instructions that examiners should consult their manager to determine if the fraud
coordinator and the SB/SE Division fraud technical advisors should be contacted to determine
whether to continue development of the fraud issues. However, these guidelines were not being
followed.
When examiners identify indications that third parties have perpetuated fraud on tax-exempt
entities and information items are forwarded to other divisions, TE/GE Division management has
no control over whether the information items will be examined for potential fraud. If the
information items are not examined and fraud is actually occurring, the fraud may continue and
will not be addressed through civil penalties or criminal prosecution because TE/GE Division
management does not have the authority to examine customers of other IRS divisions. When
this occurs, it may result in lost revenue to the Federal Government because the third parties will
continue to avoid paying tax and, more importantly, the fraud will continue to exist. This
condition can occur in all five TE/GE Division offices and is important because most fraud
issues identified within the TE/GE Division are perpetrated by customers of other IRS divisions,
yet TE/GE Division management has no assurance that the potential fraud will be addressed.

A corporate approach is needed to manage fraud risk
The challenge for the Commissioner, TE/GE Division, is to determine how best to ensure that a
consistent and effective fraud program is implemented in all of the TE/GE Division offices,
while still allowing each of the five offices to manage the technical aspects of their individual
programs. Because management within the five TE/GE Division offices has determined
individually how to implement a fraud program within their offices, some offices are left without
processes and procedures to prevent and detect fraud, and at least one office is struggling to
understand how fraud risk management fits into its daily operations. A more corporate approach
with centralized oversight is needed to provide for a more effective TE/GE Division fraud
program. Unless centralized executive direction and oversight is applied, the TE/GE Division’s
fraud program may continue to have critical issues that, if not sufficiently addressed, will prevent
the TE/GE Division from successfully managing fraud risk. A more effective fraud program will
provide assurance that the trust placed in the tax-exempt sector by taxpayers and the good work
done by most tax-exempt organizations are not tarnished.




                                                                                            Page 14
                      A Corporate Approach Is Needed to Provide for a More
                              Effective Tax-Exempt Fraud Program



Recommendations
To provide for a more effective TE/GE Division fraud program, the Commissioner,
TE/GE Division, should:
Recommendation 1: Develop and implement a corporate fraud approach with centralized
oversight for the TE/GE Division. This approach should include implementing key controls to
identify and address fraud in the tax-exempt sector and implementation of corrective actions to
previously agreed to TIGTA recommendations.
       Management’s Response: IRS management agreed with this recommendation. The
       TE/GE Division Compliance Issues Counsel, now vested with centralized oversight, will
       develop and implement a corporate fraud approach for the TE/GE Division. This will
       include implementing key controls, where they do not already exist, to identify and
       address fraud in the tax-exempt sector and implementing corrective actions to previously
       agreed TIGTA recommendations pertaining to fraud.
Recommendation 2: Ensure that all TE/GE Division offices follow IRS procedures and
contact the SB/SE Division Fraud Office to determine whether cases with affirmative indications
of fraud should be pursued as fraud development cases.
       Management’s Response: IRS management agreed with this recommendation. The
       TE/GE Division Compliance Issues Counsel will ensure, to the extent they may not
       already be doing so, that all TE/GE Division offices follow relevant IRS procedures and
       contact the SB/SE Division Fraud Office to determine whether affirmative indications of
       fraud should be pursued as fraud development cases.




                                                                                         Page 15
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program



                                                                                                   Appendix I

        Detailed Objectives, Scope, and Methodology

The overall objectives of this review were to determine whether emphasis placed on detecting
fraud by TE/GE Division management resulted in a more effective program to identify criminal
and civil fraud issues in the tax-exempt sector and follow up on recommendations from prior
TIGTA audits of the TE/GE Division’s fraud program. In addition, we determined the number
of civil fraud assessments and criminal fraud referrals made by the TE/GE Division. To
accomplish these objectives, we:
I.       Evaluated the emphasis 1 the TE/GE Division placed on improving its fraud program.
         A. Followed up on recommendations in all five TE/GE Division offices from the
            Fiscal Years 2003 and 2005 TIGTA audit reports 2 involving the TE/GE Division
            fraud program and determined whether corrective actions were implemented.
         B. Determined whether TE/GE Division management (Division level and all
            five offices) emphasized the importance of identifying and referring potential
            criminal and civil fraud issues and provided the tools and resources necessary to
            improve the effectiveness of its fraud program.
         C. Determined whether TE/GE Division management (Division level and all
            five offices) had coordinated with other IRS operating divisions to enhance its fraud
            program.
II.      Evaluated whether the actions taken by TE/GE Division management to emphasize and
         improve the fraud program resulted in the identification of potential indicators and actual
         referrals of criminal and civil fraud issues for further development and prosecution.
         A. Determined from review of a judgmental sample of 25 available examination case
            files whether employees in all 5 TE/GE Division offices identified and followed up
            on cases where fraud indicators were present.



1
  For the purpose of this audit, “emphasis” was judged by determining whether TE/GE Division management
ensured 1) corrective actions from prior audits were taken, 2) strategic documents emphasized fraud, 3) fraud-related
documents and training were adequate, 4) resources were assigned to detect fraud, 5) adequate coordination existed
with other divisions, and 6) examiners considered fraud when fraud indicators were present.
2
  The Tax Exempt and Government Entities Division Should Pursue Additional Methods to Identify Potential
Fraudulent Activities (Reference Number 2003-10-217, dated September 29, 2003) and The Tax Exempt and
Government Entities Division Is Making Progress to Detect and Deter Fraud Within Its Customer Base, but the
Impact Cannot Be Determined at This Time (Reference Number 2005-10-161, dated September 30, 2005).
                                                                                                           Page 16
                          A Corporate Approach Is Needed to Provide for a More
                                  Effective Tax-Exempt Fraud Program



         B. Determined whether fraud coordinators received more 3 questions regarding fraud
            issues.
         C. Determined whether fraud coordinators received more requests for assistance to
            develop fraud cases.
         D. Determined whether TE/GE Division management in all five Division offices referred
            practitioners (i.e., lawyers and accountants) to the IRS Office of Professional
            Responsibility for potential criminal or civil fraud issues.
         E. Identified the number of potential criminal and civil fraud development cases
            identified by the TE/GE Division (all five offices), approved by the SB/SE Division
            Fraud Office, and referred to the CI Division since our last report. We performed
            Integrated Data Retrieval System 4 account research to determine the current status or
            final disposition of the cases, including tax, penalty, and interest assessments. Data
            on the Integrated Data Retrieval System were not assessed to determine its validity
            and reliability.

Internal Controls Methodology
Internal controls relate to management’s plans, methods, and procedures used to meet their
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance. We determined that the
following internal controls were relevant to our objectives: TE/GE Division and SB/SE Division
Fraud Office policies, procedures, and practices for identifying and referring potential fraud
issues. We evaluated these controls by interviewing management, reviewing applicable
information, and reviewing potential fraud cases referred to the SB/SE Division Fraud Office and
the CI Division by TE/GE Division offices.




3
  For the purpose of this audit, “more” is defined as an increase since the Fiscal Year 2005 TIGTA audit report on
the TE/GE Division’s Fraud Program.
4
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
                                                                                                           Page 17
                    A Corporate Approach Is Needed to Provide for a More
                            Effective Tax-Exempt Fraud Program



                                                                           Appendix II

                Major Contributors to This Report

Nancy A. Nakamura, Assistant Inspector General for Audit (Management Services and Exempt
Organizations)
Troy D. Paterson, Director
Gerald T. Hawkins, Audit Manager
Allen L. Brooks, Lead Auditor
Andrew J. Burns, Senior Auditor
Deadra M. English, Senior Auditor
Cheryl J. Medina, Senior Auditor
Julia Moore, Senior Auditor
Yolanda D. Brown, Auditor
David F. Allen, Program Analyst




                                                                                  Page 18
                    A Corporate Approach Is Needed to Provide for a More
                            Effective Tax-Exempt Fraud Program



                                                                         Appendix III

                         Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Chief, Criminal Investigation Division SE:CI
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Tax Exempt and Government Entities Division SE:T
Director, Employee Plans, Tax Exempt and Government Entities Division SE:T:EP
Director, Exempt Organizations, Tax Exempt and Government Entities Division SE:T:EO
Director, Government Entities, Tax Exempt and Government Entities Division SE:T:GE
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Chief, Criminal Investigation Division SE:CI:S:PS
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Tax Exempt and Government Entities Division SE:T:CL




                                                                                 Page 19
                          A Corporate Approach Is Needed to Provide for a More
                                 Effective Tax·Exempt Fraud Program




                                                                                               Appendix IV


                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our prior
recommendations have had on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
•   Increased Revenue - Actual; 4 taxpayer accounts affected, $] 0,000,000 1 (see page 5).

Methodologv Used to Measure the Reported Benefit:
The reported benefit is based on the number ofTE/GE Division accounts where tax or civil fraud
penalties were assessed since our prior audit report recommendations in Fiscal Years 2003 and
2005. These assessments made during Fiscal Years 2006 through 2008 are due in part to the
implementation of corrective actions based on TlGTA's prior recommendations to improve the
TE/GE Division fraud program.
Four customer account examinations in the TE/GE Division resulted in civil fraud penalties and
other related assessments totaling approximately $10 million. This infonnation was identified
through various TE/GE Division records and verified through account research on the
IRS Integrated Data Retrieval System 2 and other supporting documentation.

Type and Value of Outcome Measure:
•   Increased Revenue - Potential; 7] taxpayer accounts affected, $37,000,000 (see page 5).

Methodologv Used to Measure the Reported Benefit:
The reported benefit is based on the number of TE/GE Division accounts where indications of
potential tax fraud were identified since our prior audit report recommendations in
Fiscal Years 2003 and 2005. These fraud development cases are due in part to the
implementation of corrective actions based on TIOTA's prior recommendations to improve the
TE/GE Division fraud program.




2 fRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer's account records.

                                                                                                             Page 20
                            A Corporate Approach Is Needed to Provide for a More
                                   Effective Tax-Exempt Fraud Program




For Fiscal Years 2006 through 2008, the SB/SE Division Fraud Office approved 48 TEIGE
Division cases for fraud development. Of the 48 cases, 32 potentially represent approximately
$37 million of additional revenue which may be forthcoming. The status3 of the 32 cases as of
September 30, 2008, is as follows:
      •      104 cases were accepted by the CI Division for potential criminal prosecution and
             assessment of $11 million.
      •      22 cases include indications of potential fraud that are being developed by the
             TE/GE Division and SB/SE Division Fraud Of1ice with potential assessments of $26
             million.
Information regarding TE/GE Division accounts being worked by the CI Division was identified
from the SB/SE Division National Fraud Database and verified using Referral Report of
Potential Criminal Fraud Cases (Form 2797), which is used to refer cases by the SB/SE Division
Fraud Office to the CI Division. Information regarding TE/GE Division accounts being worked
with the SB/SE Division Fraud Office was identified from the SB/SE Division National Fraud
Database and verified using Fraud Development Status (Form I l66l), which is used by the
SB/SE Division Fraud Office to approve cases from the TE/GE Division for fraud development.




, This status only represents the 48 cases identified from SB/SE Division Fraud Office data that were approved for
fraud development from Fiscal Years 2006 through 2008 lind does nottake into consi.deration cases that may have
already been in process from prior years. Therefore, the numbers discussed in this status will not always agree with
J<iI>I1Yf>   1·         .     in .h;~ .G~~'"




                                                                                                            Page 21
                       A Corporate Approach Is Needed to Provide for a More
                               Effective Tax-Exempt Fraud Program



                                                                                              Appendix V

 Tax Exempt and Government Entities Division Fraud
                 Program Details

The TE/GE Division fraud program is not as effective as it could be due to inconsistent
implementation of key fraud controls in the five TE/GE Division offices. To reach this
conclusion, we assessed actions that TE/GE Division management has taken to 1) implement
prior TIGTA recommendations, 2) emphasize the importance of fraud to employees, and
3) coordinate with other IRS divisions and fraud groups. Figure 1 below provides details on our
assessment of each of these three key areas using a red, yellow, and green rating system. Red
ratings were provided if zero, one, or two TE/GE Division offices effectively implemented a key
fraud program control. A yellow rating was provided if three or four offices effectively
implemented a key fraud program control, and a green rating was provided if all five offices
effectively implemented a key fraud program control.
        Figure 1: TIGTA Assessment of Key Fraud Program Controls in the
                               TE/GE Division

                                                                                                     Status




                                                                                                       Yellow

                                                                                                                Green
                                                                                               Red

Key Fraud Program Control

Implementing Prior TIGTA Recommendations

   TE/GE Division management should perform assessments to identify areas
   vulnerable to fraud. (Recommended in the September 2003 and September 2005
   TIGTA Reports)

               - One of four offices developed a formal risk assessment. However, this
                 control was rated yellow because three additional offices incorporated
                 fraud indicators and/or provided information about areas vulnerable to
                 fraud in training material that was presented to their respective
                 employees.
               - In the fifth office, TE/GE Division management did not agree to perform
                 a risk assessment, as the TIGTA recommended. Management stated it
                 was not prudent to conduct a risk assessment for their respective customer
                 base because the information would quickly become outdated.


                                                                                                       Page 22
                        A Corporate Approach Is Needed to Provide for a More
                                Effective Tax-Exempt Fraud Program




                                                                                                       Status




                                                                                                         Yellow

                                                                                                                  Green
                                                                                                 Red
Key Fraud Program Control

   TE/GE Division management should provide fraud awareness training, including
   technical examples. (Recommended in the September 2003 and September 2005
   TIGTA Reports)

                Five of five offices provided fraud training.
                - Two of five offices provided general fraud awareness training. One of the
                  offices provided classes on several occasions, and one office did not
                  provide fraud awareness training until May 2008 when it provided a
                  1 hour class for employees.
                - Two additional offices sent employees to specialized fraud training,
                  including forensic accounting, expert witness, Federal Bureau of
                  Investigation seminars, and Advanced Financial Techniques at a Federal
                  Law Enforcement Training Center.
                - The fifth office provided fraud training to employees on specific industry
                  technical issues on several occasions.

   TE/GE Division management should alert customers of potential fraud scenarios
   identified within their customer base. (Recommended in the September 2005 TIGTA
   Report)

                - Four of five offices alerted their customers about fraud-related scenarios
                  through the use of presentations, Internet postings, articles, and/or
                  publications. In one of the four offices, the fraud coordinator prefers not
                  discussing fraud-specific matters with their customers during
                  presentations.
                - The fifth office did not alert its customers advising that they are not
                  perceived as a significant risk to perpetrate fraud and, therefore, the need
                  to present fraud scenarios is not appropriate or useful.

   TE/GE Division management should enhance inventory systems to track and
   monitor the potential fraud cases and fraud referrals and the results of examinations,
   investigations, and referrals. (Recommended in September 2005 TIGTA Report)

                TE/GE Division was planning to use two new inventory systems and
                employ them, to the degree possible, to track fraud cases while they remain
                in the TE/GE Division’s control. The two tracking systems in



                                                                                                         Page 23
                           A Corporate Approach Is Needed to Provide for a More
                                  EHectlve Tax-Exempt Fraud Program




.' Key Fraud Program Control
      .-...-.----r-:-.-.....-...       .... '.       . .-.....          --'.           . . _.
                   I TE!GE Division management's response were under development and had
                   . not been brought online.
                   We idcntitied the following alternative actions:
                   - Three of tive offices have tracking systems that range from very basic to
                     moderately sophisticated.

                       •    One office began tracking its fraud development cases in
                            October 2006 by using a computer spreadsheet consisting of
                            information including the name of the assigned examiner, date
                            traud development was approved, and date the referral was
                            submitted to the CI Division. However, at the time of our review,
                            information in the log was inaccurate or not up-to-date, and
                            management could not easily identify the current status of certain
                            cases. Management did not always receive information from the
                            field agents regarding fraud development cases and fraud referrals
                            and sometimes had to go directly to the agents to determine the
                            status or location of the case or referral. That oftlce reconciled its
                            fraud development cases and fraud referrals against the
                            SB/SE Division Fraud Office database once a year. We attempted
                            to reconcile this infonnation with the SB/SE Division Fraud Office
                            database and discrepancies were found.
                       •    A second office maintained a less comprehensive computer
                            spreadsheet of open and closed fraud development cases and fraud
                            reftm-als. The open and closed spreadsheet included potential
                            fraud cases that were referred to the SB/SE Division Fraud Office.




                           '-----'-------'-----'----'-_~_ _~I

                       •   The third office maintained a complex spreadsheet used to track
                           pertinent data from the cases under development and after referral.

  - - -...--'--------------...._ ..._...._._....                             ._.. _.. .-_._---_--1._-_.__.-.._.._-
                                                                                                            Page 24
                        A Corporate Approach Is Needed to Provide for a More
                               Effective Tax-Exempt Fraud Program




Key Fraud Program Control
                - The remaining two offices do not have trackin a s stems to monitor fraud
                  develo ment cases and fraud refe
                                                       1




   TE/GE Division management should provide more in-depth fraud training for fraud
   coordinators. (Recommended in the September 2003 TIGTA Report)

                • Two of five offices sent fraud coordinators to specialized training.
                - All five offices ensured their fraud coordinators attended at least one
                  SB/SE Division Fraud Summit.
                - Although only two of five offices sent fraud coordinators to specialized
                  fraud training, this control was elevated to yellow because all five offices
                  did send their fraud coordinators to the SB/SE Division Fraud Summits at
                  least once.

   TE/GE Division management should establish a process to evaluate external or
   internal identified allegations or issues of potential fraud. (Recommended in the
   September 2003 TIGTA Report)

                - TE/GE Division management issued instructions to the one applicable
                  office on giving priority treatment to information items in which fraud is
                  suspected. However, five offive offices now have processes to evaluate
                  external or internal allegations of potential fraud. These instructions
                  require employees to gather appropriate evidence and seek guidance from
                  their fraud coordinator and manager if indications of fraud are identified.

   TE/GE Division management should coordinate with the CI Division to determine
   which potential fraud issues to prioritize for referral. (Recommended in the
   September 2003 TIGTA Report)

                - TE/GE Division management from one of five offices coordinated with
                  the CI Division to determine which fraud issues to prioritize.




                                                                                                 Page 25
                       A Corporate Approach Is Needed to Provide for a More
                               Effective Tax-Exempt Fraud Program




                                                                                                     Status




                                                                                                       Yellow

                                                                                                                Green
                                                                                               Red
Key Fraud Program Control

Emphasizing the Importance of Fraud to Employees

   Did strategic planning documents (Strategic Plans, Annual Work Plans, Annual
   Examination Letters, etc.) emphasize that identifying and developing fraud issues
   should be considered throughout the Division?

                - Documents such as Strategic Plans, Annual Work Plans, Annual
                  Examination Letters, etc. were identified in four of five offices that
                  emphasized identifying and developing fraud issues.

   Did documents provided to employees highlight fraud scenarios that were identified
   and the tools and techniques for employees to use to identify fraud?

                Documents from three offices and the TE/GE Division executive office
                were identified that emphasized fraud. However, only one of the four
                offices issued the documents prior to the TIGTA advising TE/GE Division
                executives of our planned audit of the TE/GE Division’s fraud program.
                - In July 2008, after we initiated this audit, the Commissioner,
                  TE/GE Division, issued a memorandum that emphasized the importance
                  of identifying and developing fraud cases to foster confidence in the tax
                  system and compliance with the law. The Commissioner also appointed a
                  Division fraud specialist and directed all employees to contact the
                  specialist for assistance in fraud investigations. Although no other
                  responsibilities were noted in the memorandum, this is a step in bringing
                  additional consistency to the TE/GE Division fraud program.
                - The second memorandum, issued in February 2007, addressed the
                  increased use of tax-exempt entities to improperly shield income or assets
                  from taxation and the importance of agents being alert to the detection of
                  fraud indicators in all cases.
                - In February 2008, one office included fraud-related scenarios in the
                  SB/SE Division Fraud Office newsletter and, in October and
                  December 2008, included successful fraud referral stories in its own
                  newsletter. In addition, the office had drafted fraud scenarios for
                  inclusion in future SB/SE Division Fraud Office newsletters or its own
                  newsletter.




                                                                                                       Page 26
                        A Corporate Approach Is Needed to Provide for a More
                                Effective Tax-Exempt Fraud Program




                                                                                                      Status




                                                                                                        Yellow

                                                                                                                 Green
                                                                                                Red
Key Fraud Program Control

                - The third memorandum was issued in July 2008, after this audit was
                  initiated, and expressed the importance of recognizing integrity-related
                  issues and taking timely action to address such issues.
                Note: This key control is rated red because while three offices and the
                TE/GE Division Commissioner’s office issued documents, only one of the
                offices issued the memorandums prior to the TIGTA advising
                TE/GE Division executives of the planned audit.

   Did the TE/GE Division section of the Fraud Handbook contain up-to-date
   information on how to identify and develop potential fraud cases for referral?

                - Four of five offices are enhancing and updating the TE/GE Division
                  section of the Fraud Handbook. The information includes guidance on
                  developing and referring potential fraud issues; however, only one office
                  plans to include examples of fraud scenarios unique to its customer base.
                  This is important because it provides TE/GE Division employees with
                  current guidelines about the TE/GE Division fraud program.

   Did TE/GE Division management provide staffing to assist in the detection of
   fraudulent activities?

                - A fraud specialist was designated for the TE/GE Division. All offices
                  designated fraud coordinators, one office organized an investigative
                  group, and a third office designated a group to work fraud issues.

   Did fraud coordinators help develop fraud issues and were they available to assist
   other employees?

                 - Fraud coordinators in four of five offices helped develop fraud issues and
                   were available to assist other employees.




                                                                                                        Page 27
                           A Corporate Approach Is Needed to Provide for a More
                                   Effective Tax-Exempt Fraud Program




                                                                                                         Status




                                                                                                           Yellow

                                                                                                                    Green
                                                                                                   Red
 Key Fraud Program Control

 Coordinating With Other IRS Divisions to Enhance the Fraud Program

     Did TE/GE Division management communicate with the CI Division to improve the
     identification, development, and referral of potential fraud issues?

                    - TE/GE Division management in three of five offices met with
                      CI Division management to improve the identification, development, and
                      referral of potential fraud issues.
                    - TE/GE Division representatives from four of the five offices met with
                      representatives from the CI Division, the SB/SE Division Fraud Office,
                      and the IRS Special Counsel to establish a Fraud Oversight Work Group 1
                      in March 2005 to improve coordination of potential fraudulent activity
                      within their respective areas. However, the Oversight Work Group did
                      not meet again after the initial meeting was held and no improvements
                      had been made yet.

     Did TE/GE Division management work with the SB/SE Division Fraud Office to
     develop a strategy for identifying criminal and civil fraud issues?

                    - TE/GE Division management in one of five offices worked with the
                      SB/SE Division Fraud Office to develop a strategy for identifying
                      criminal and civil fraud issues within the tax-exempt sector.

     Did TE/GE Division management develop a method to measure the success (feedback
     loop) of fraud referrals?

                    - TE/GE Division offices receive information from either the SB/SE
                      Division Fraud Office or the CI Division on the disposition of all cases.
Source: TIGTA discussions with TE/GE and SB/SE Divisions management and review of strategic documents.




 1
  The Fraud Oversight Workgroup was established in March 2005 by representatives from four of the
 TE/GE Division’s five offices and met with representatives from the CI Division, the SB/SE Division Fraud Office,
 and the IRS Special Counsel to improve coordination of potential fraudulent activity within their respective areas.
                                                                                                           Page 28
       A Corporate Approach Is Needed to Provide for a More
               Effective Tax-Exempt Fraud Program



                                                   Appendix VI

Management’s Response to the Draft Report




                                                          Page 29
A Corporate Approach Is Needed to Provide for a More
        Effective Tax-Exempt Fraud Program




                                                   Page 30
A Corporate Approach Is Needed to Provide for a More
        Effective Tax-Exempt Fraud Program




                                                   Page 31
A Corporate Approach Is Needed to Provide for a More
        Effective Tax-Exempt Fraud Program




                                                   Page 32
